No.

IN THE
SUPREME COURT OF THE UNITED STATES

JEAN LEONARD TEGANYA,
Petitioner,
v.
UNITED STATES,
Respondent.
AFFIDAVIT OF TIMELY FILING BY MAIL
I, Christine DeMaso, on oath, depose and say:
1.

I submit this affidavit in accordance with Rule 29.2 of this Court.

2.

The enclosed petition for writ of certiorari is being sent via first class
mail, postage prepaid today, September 21, 2021, to:
Clerk
Supreme Court of the United
States 1 First Street, N.E.
Washington, D.C. 20543

3.

The mailing is within the permitted time for the petition for

certiorari. Made this 21st day of September 2021 under the
penalties of perjury.

/s/ Christine DeMaso

Christine DeMaso

